SEC.gov |  Priority to Location of New Offices in Rural Areas
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Priority to Location of New Offices in Rural Areas
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 30
June 19, 2003
To: Jayne Seidman
From: Walter Stachnik
Re: Priority to location of new offices in rural areas
In Audit Memorandum No. 22, we recommended that the Office of Administrative and Personnel Management (OAPM) establish and maintain policies and procedures giving first priority to the location of new offices and other facilities in rural areas, as required by Section 601 of the Rural Development Act (RDA) of 1972 (7 U.S.C. § 2204b-1).
The Consolidated Appropriations Resolution, 2003, Public Law 108-7 (enacted February 20, 2003), required the Office of Inspector General in each agency to again report on compliance with this RDA requirement.
OAPM has not yet developed policies and procedures to implement our prior recommendation.  Because the Commission is considering relocating two of its district offices (Boston and Salt Lake City) in the near future, development of appropriate policies and procedures should be given a high priority.
Recommendation A
Within 90 days from the date of this memorandum, OAPM should establish and maintain policies and procedures giving first priority to the location of new offices and other facilities in rural areas, as required by the RDA.
Recommendation B
OAPM should comply with the RDA requirement (and the policies and procedures OAPM establishes to implement the requirement) when deciding on the location of Commission offices and other facilities.
Management Response
OAPM indicated that it is revising its leasing procedures to incorporate the RDA requirement.  OAPM has prepared documentation for the Boston District Office relocation that includes consideration of the RDA.  It further indicated that it would prepare similar documentation for future relocations.
cc: George Brown
Don Sherman
Jim McConnell
Thomas McCool
Darlene Pryor
Peter Derby
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us